Counsel for All Respondents
Christopher J. Braun
Jonathan P. Emenhiser
Josh S. Tatum
Plews, Shadley, Racher & Braun LLP
1346 North Delaware Street
Indianapolis, Indiana 46202
Tel: 317/637-0700
cbraun@psrb.com
jemenhiser@psrb.com
jtatum@psrb.com
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
Tel: 202/263-3000
apincus@mayerbrown.com
Additional Counsel for Respondent Samuel Himsel
Kyle A. Lansberry
Brandon W. Ehrie
Lewis Wagner LLP
501 Indiana Avenue, Suite 200
Indianapolis, IN 46202
Tel: 317/237-0500
klansberry@lewiswaganer.com
behrie@lewiswagner.com
Counsel for the State of Indiana
Thomas M. Fisher
Office of the Indiana Attorney General
Indiana Government Center South, 5th Floor
302 West Washington Street
Indianapolis, Indiana 46204
Tel: 317/232-6255
tom.fisher@atg.in.gov

